                       OFFICE OF INSPECTOR GENERAL
                      CORPORATION FOR NATIONAL AND
                           COMMUNITY SERVICE




                                Interim Report on the
                         Assessment of the Implementation of
                             New Enrollment Procedures

                                 Report Number 04-05
                                  September 5,2003




                                      Prepared by:




                             Office of Inspector General
                   Corporation for National and Community Service
                            1201 New York Avenue, NW.
                               Washington, DC 20525




This report was issued to Corporation management on November 3, 2003. Under the laws
and regulations governing audit follow up, the Corporation must make final management
decisions on the report's findings and recommendations no later than May 3, 2004, and
complete its corrective actions by November 3,2004. Consequently, the reported findings do
not necessarily represent the final resolution of the issues presented.
                                     Office of Inspector General

                                      Interim Report on the
                               Assessment of the Implementation of
                                   New Enrollment Procedures



                                           Table of Contents


Executive Summary.. ......................................

Background. .................................................

Objectives, Scope and Methodology.. ...................

Observations and Recommendations. ...................

New Enrollment Procedures. ..................................................... ..Appendix 1
                                       ~*~ioo~*L &
                                       COMMUNITY
                                       SERVICE5
                            OFFICE
                                 OF INSPECTOR
                                           GENERAL

                                         September 5,2003




Mr. James Manning
Acting Chief Executive Officer
Corporation for National and Community Service
1201 New York Avenue, NW
Washington, DC 20525

This interim report presents the results of our assessment of the Corporation for National
and Community Service's new enrollment procedures issued by former Chief Executive
Officer, Leslie Lenkowsky on January 7,2003.

Executive Summary

Generally, the new enrollment procedures have been implemented. The Consolidated
Appropriations Resolution of 2003 (Pub. L. No. 108-7), the Strengthen AmeriCorps
Program Act (42 U.S.C. $ 12605), and Corporation organizational changes require the
revision of some of the new enrollment procedures. Implementation of these new
procedures has made enrollment an integral part of the grants award cycle. The new
enrollment procedures allow the Corporation to track the number of slots that can be
awarded, and to track the number of enrollees who count against those slots, which is a
significant improvement over past practices.

Background

On November 15, 2002, the Corporation paused new AmeriCorps member enrollment.
This pause, which was lifted on March 11, 2003, was required because the Corporation
had surpassed the number of members that the National Service Trust could support. By
law, the Corporation can only approve AmeriCorps positions if sufficient funds are
available in the Trust to pay the members' education awards.' Some factors that
contributed to enrollment exceeding capacity include:



I
  This interpretation of the legal requirements of the National and Community Service Trust Act has since
been modified by the Strengthen AmeriCorps Program Act, enacted on July 3, 2003. The Act requires that
the Corporation ensure that money be available in the Trust for AmeriCorps enrollees' education awards at
the time grants are awarded to AmeriCorps grantees, or at the time service agreements are entered into with
NCCC and VISTA volunteers.

                       1201 New Yorlz Avenue, NW, Suite 830 * Washington, DC 20525
                          202-606-5000 * Hotline 800-452-8210 * www.cncsig.gov
                            Senior Corps   t   AmeriCorps   * Learn and Serve America
                                                                                                        U   S ACorpsS
                                                                                                        Freedom
                                                                                                        T ~ Pr<\dcnt'\
                                                                                                            C            C . ~ IIU Crrvice
        The Corporation did not have effective internal controls to assess the impact of
        enrollment on the Trust prior to authorizing new national service positions.

        Corporation staff focused on appropriations made available for AmeriCorps
        grants, and did not consider Trust fund levels when making grant decisions to
        support new national service positions.

        There was a lack of coordination between senior Corporation officials,
        AmeriCorps staff, and Trust personnel as to how many new national service
        positions could be allocated annually to the programs.

Dr. Leslie Lenkowsky, the Corporation's Chief Executive Officer (CEO) from October
 17, 2001, to August 15, 2003, announced on January 7, 2003, that the Corporation was
implementing a set of procedures for awarding AmeriCorps grants and monitoring
AmeriCorps enrollment. The procedures were designed to "have timely reporting and
tracking of member enrollments, thereby enhancing our ability to forecast enrollment.. .."
These procedures, included as Appendix 1 to this report, require that the Director of
AmeriCorps and the Chief Financial Officer (CFO) implement new procedures in their
respective departments. In addition, at its February meeting, the Corporation's Board of
Directors, via resolution, directed the CEO "to develop, and submit for its review by
March 14, 2003, a comprehensive action plan to strengthen management controls,
including appropriate consultations with the Board, relating to the approval of
AmeriCorps grants and education awards, and to consult with the Board (or designated
committees thereof) on a regular basis regarding progress in implementing the plan."

Objectives, Scope and Methodology

'The objectives of this assessment were to determine if the new enrollment procedures
were implemented, if the Corporation presented its Comprehensive Action Plan as
required by the Board of Directors, and if timely enrollment data is available to
Corporation management. Our scope was limited to observations and tests of procedures
performed at Corporation headquarters for ArneriCorps*State competitive grants.2 The
AmeriCops*State competitive awards was the first grant application review process to be
held after the new procedures were issued and the enrollment pause was lifted. The
method used in our assessment was to obtain documentation that the new enrollment
procedures were implemented. The new procedures are included in their entirety as
Appendix 1.




' We note that the General Accounting Office (GAO) is performing an in-depth review of the new
enrollmefit procedures, which includes testing the reliability of enrollment data. The GAO expects to issue
its report on January 16,2004.
Observations and Recommendations

We found that the Director of AmeriCorps and the CFO have implemented the
procedures required for their respective departments. AmeriCorps enrollment is being
monitored on a biweekly basis, and Corporation management meets regularly to discuss
enrollment information. Certain procedures were not implemented by the Corporation
because they were rendered moot by the February 2003, enactment of the Consolidated
Appropriations Resolution, which limited AmeriCorps program participants to 50,000
approved positions, and the July 2003, enactment of the Strengthen AmeriCorps Program
Act. These procedures include AmeriCorps Procedure No. 3, which requires the
establishment of a contingency reserve for additional member enrollees, and Chief
Financial Officer Procedure No. 4, which requires the CFO to review Trust liability
estimates each month based on enrollment. These procedures should be revised because
the Strengthen AmeriCorps Program Act establishes the Corporation's obligation point
for AmeriCorps members' education awards at grant approval, rather than at member
enrollment. Since Congress has established grant approval as the obligation point, these
procedures based on enrollment are outdated. Lastly, we found that the Comprehensive
Action Plan, due to the Board of Directors on March 14, 2003, has not been presented.

We recommend that:

   (1) The new enrollment procedures be updated for legislative and organizational
       changes that have occurred since the procedures were issued. The update should
       recognize that the financial statement Trust liability is different than Trust
       obligations reported to OMB;

   (2) The CFO document CFO requirements in written procedures;

   (3) The Corporation establish procedures to ensure that the Trust obligations are
       properly recorded, reported and appear in budgetary documents (refer to
       AmeriCorps Procedures No. 7); and,

   (4) The Comprehensive Action Plan be presented to the Board of Directors.

Sections A and B below outline the procedures used by AmeriCorps and the Office of the
Chief Financial Officer to monitor AmeriCorps member awards and enrollment.

A. AmeriCorps Procedures

The assessment found that AmeriCorps implemented the following procedures:

           1. Program officer recommendations for Federal obligations in AmeriCorps
              programs (National and State, NCCC, and VISTA) are accompanied by
              projections of the total number of AmeriCorps positions (converted to full-
              time equivalents) that would result if grant awards are made.
          2. The Director of AmeriCorps tallies and compares those projections with
             the number of positions that were agreed upon with the CFO prior to the
             award process. The number of positions is not to exceed the budgeted
             level supported by actual appropriations for the year in which awards will
             be made (see below, CFO items 1 and 2). This tally and comparison
             occurs before submission to the CEO for approval.

          3. The Director of AmeriCorps, CEO, and CFO meet monthly to discuss
             enrollment. No positions are approved that exceed the amount that is
             budgeted, justified, and supportable through program and Trust budgets
             for the program year.

          4. The Director of AmeriCorps has developed procedures for earlier
             reporting of actual enrollment to Corporation headquarters and has
             clarified the steps that constitute an enrollment. The AmeriCorps
             Commitment Tracker feature was added to the Web Based Reporting
             System before the pause was lifted in March 2003. This feature provides
             the Corporation and AmeriCorps grantees with a snapshot of the slots
             awarded, commitments and enrollment against those slots, exited members
             with and without awards, and cancelled commitments. Also, before lifting
             the enrollment pause, guidance was issued to clarify the enrollment
             process.

          5. The Director of AmeriCorps reports biweekly to the CEO and CFO on the
             number of approved program slots actually filled, by program (National
             and State, NCCC, and VISTA) and type of placement (full-time, part-time,
             reduced part-time).

          6. All AmeriCorps grants, with approved enrollment numbers, including
             continuations, are approved by the CEO, after consultation with the CFO.

B. Chief Financial Officer Procedures

We found that the Chief Financial Officer is taking the following actions to ensure that
enrollment does not exceed the number of members that can be supported by the Trust:

           1. In developing budget requests for transmittal to the Office of Management
              and Budget, the CFO uses the proposed number of AmeriCorps positions
              to be filled as the basis for amounts to be requested for the Trust, using the
              updated forecasting model, as necessary. An analysis of the Trust model's
              methodology for projecting Federal obligations and budgetary resource
              requirements for education awards is included with the Budget
              submission. Based on Congressional action, the CFO transmits the
              budgeted number of AmeriCorps positions to the AmeriCorps Director
              prior to approval of AmeriCorps commitments considered in the grant
              approval cycle.
          2. The CFO and Director of AmeriCorps meet prior to each grant review and
             approval cycle to determine the appropriate number of education awards
             and program funds to be considered by the CEO in the approval cycle.

              A team of AmeriCorps program employees and CFO employees work
              together to compile biweekly reports of the number of enrollments in
              AmeriCorps. These reports are given to the CEO, CFO, and AmeriCorps
              Director. The report shows slots approved and enrollment against those
              slots, by program and type of placement. Though CFO Procedure No. 3
              requires the CFO to establish a threshold for determining when deviations
              are significant enough to update the assumptions in the Trust model, this
              requirement may be unnecessary because the Trust model is updated
              automatically on a quarterly basis.

          4. Each month discrepancies in actual enrollment figures between the Web
             Based Reporting System (the AmeriCorps database) and the System for
             Programs, Agreements, and National Service Enrollment (SPAN or the
             Trust database) are reconciled.

          5. All AmeriCorps grant awards are subject to review by the CFO. The CFO
             reviews grant awards before they are presented to the CEO for approval.

'The Corporation has made marked progress in implementing the new enrollment
procedures. We expect to review the changes made as a result of these recommendations.


                                        Sincerely,


                              9- qW?-
                                    J. Russell George
                                    Inspector General
                                                                                  Appendix 1


                                        MEMORANDUM


       FROM:           Leslie Lenkowsky
                       Chief Executive Officer

       DATE:           January 7,2003

       RE:             Summary of New Enrollment Procedures


Today, the logth Congress is convening and we are optimistic that it will take action that
will enable us to end the pause on AmeriCorps enrollments. We will let you know when
that occurs.

In order to correct the problems that led to the pause, the Corporation is implementing a
set of new procedures for awarding AmeriCorps grants and monitoring AmeriCorps
enrollments. A summary of these procedures is attached. Our goal in adopting these new
procedures is to ensure we have timely reporting and tracking of member enrollments,
thereby enhancing our ability to forecast enrollment and avoid another pause in the
luture.

Although these procedures will chiefly affect how the Corporation's Washington , D.C.
headquarters staff operates, I want to call your attention to one that will directly affect all
of the Corporation's AmeriCorps grantees.

One of the new procedures (see AMERICORPS #4) will establish new requirements for
timely reporting of actual AmeriCorps enrollments by grantee programs. Once a
program year has begun and throughout the year, we must regularly track whether or not
the enrollment projections, on which the budget for the National Service Trust is based,
are accurate. The Director of AmeriCorps will soon be announcing new enrollment
procedures designed to allow us to forecast demand and monitor actual enrollments
throughout the program year. These procedures will be effective as soon as we are able
to end the pause.

As always, thank you very much for your partnership in our ongoing effort to expand and
enhance opportunities to meet vital community needs through national service.
                                                                         Appendix 1




                               New Procedures

The Chief Executive Officer (CEO) of the Corporation for National and Community
Service (Corporation) has directed that the following new procedures will go into
effect immediately with regard to the AmeriCorps program:


   AMERICORPS

       1. All program officer recommendations for Federal obligations in the
          AmeriCorps program (National and State (N&S), NCCC, and VISTA)
          shall be accompanied by projections of the number of AmeriCorps
          positions that would result if the grant awards are made.

       2. The Director of AmeriCorps shall tally and compare those projections
          with the number of positions that were agreed upon with the Chief
          Financial Officer (CFO) prior to the award process, not to exceed the
          budgeted level supported by actual appropriations for the year in which
          awards will be made (see CFO items 1 and 2). This tally and comparison
          will occur before submission to the CEO for approval.

       3. The Director of AmeriCorps shall report monthly to the CEO and CFO.
          No positions will be approved that exceed the amount budgeted, justified,
          and supportable through program       trust budgets for the program year,
          plus a contingency reserve based on a conservative estimate of fill-rates.

       4. The Director of AmeriCorps will develop procedures for earlier reporting
          of actual enrollments to Corporation headquarters and will clarify for
          grantees the steps that constitute an enrollment (and thereby a Federal
          obligation) before lifting the AmeriCorps enrollment pause.

          The Director of AmeriCorps shall report bi-weekly to the CEO and CFO
          on the number of approved program slots actually filled, specifying by
          program (NCCC, N&S, VISTA) and type of placement (full-time, part-
          time, reduced part-time). In the event enrollment differs from projected
          figures, the Director of AmeriCorps may request changes in approved
          slots during program year, subject to approval of the CEO, but in no case
          to exceed the number of positions supportable through appropriations for
          AmeriCorps grants and the Trust.

       6. All AmeriCorps grants (with approved enrollment numbers), including
          continuations, shall be subject to approval by the CEO, after consultation
          with the CFO.
                                                                    Appendix 1

  7. The CEO will establish new procedures to ensure that the Corporation
     properly records National Service Trust Fund "obligations," i.e., the
     maximum legal liability of the Trust Fund. These obligations shall be
     reported on a quarterly basis in financial reports to the United States
     Treasury and appear in all relevant budgetary documents produced by the
     Corporation.


CHIEF FINANCIAL OFFICER

  1. In developing budget requests for transmittal to Office of Management
     and Budget (OMB), the CFO shall use the proposed number of
     AmeriCorps positions to be filled as the basis for amounts to be requested
     for the Trust, using the updated forecasting model, revised as necessary
     (and with a contingency reserve for unanticipated developments). An
     analysis of the Trust model's methodology for projecting Federal
     obligations and budgetary resource requirements for Education Awards
     will accompany the Budget submission. Based on Congressional action,
     the CFO will transmit the budgeted number of AmeriCorps positions to
     the AmeriCorps Director prior to approval of any AmeriCorps
     commitments considered by the CEO in the approval cycle.

  2. The CFO and Director of AmeriCorps will meet prior to each grant review
     and approval cycle and determine the appropriate number of Education
     Awards and program funds to be considered by the CEO in the approval
     cycle.

  3. The Director of the National Service Trust shall monitor the number of
     enrollments in AmeriCorps throughout the program year, reporting bi-
     weekly to the CEO, CFO, and AmeriCorps Director, disaggregating by
     program and type of placement. The Director of the Trust shall also
     continuously monitor other factors relevant to the model for forecasting
     Trust liabilities (such as award usage and interest rates) and report
     regularly to the CFO, highlighting any deviations from assumptions in the
     model. The CFO shall establish a threshold for determining when
     deviations are significant enough to warrant updating of forecasts.

  4. Each month, the CFO shall use actual enrollment data (and data for other
     relevant parameters, such as award usage rates and interest rates) to re-
     estimate the model for forecasting Trust liabilities. The CFO shall notify
     the CEO and AmeriCorps Director immediately if such re-estimate
     indicates a need to change enrollment targets (up or down) for the program
     year in order to ensure that obligations do not exceed available
     appropriations. The CEO will take appropriate action within one week of
     such notification and report any such action to Congress, the
     Corporation's Board, and OMB.
                                                                        Appendix 1



         5. The CFO and Director of AmeriCorps will meet at least monthly to
            reconcile any discrepancies in actual enrollment figures between WBRS
            (the AmeriCorps data base) and SPANS (the Trust data base.)

         6. All AmeriCorps grant awards shall be subject to review by the CFO.




Effective January 7,2003
                                     October 3 1 , 2003



Mr. J. Russell George
Inspector General
Corporation for National and Community Service
120 1 New York Avenue, NW
Washington, DC 20525

Dear Mr.

     Thank you for providing us with an opportunity to comment on the Interim Report on the
Assessment of the Implementation of New Enrollment Procedures (Report Number 03- 17).

      I want to express our appreciation for your thorough assessment of our procedures. We
feel we have made great strides to improving enrollment procedures for the National Service
Trust. We have reviewed the report and do not have any comments at this time.

     Again, thank you to you and your staff.

                                                 Sincerely,




                                                Acting Chief Executive Officer




                          1201 New York Avenue, NW * Washington, DC 20525
                                202-606-5000 * www.nationalservice.org
                                                                                        Freedom &rps
                          Senior Corps   +   AmeriCorps   +   Learn and Serve America   The Prertdenl's Call lo Scrvicc
